.

                                         u.s. Department of Education
                                                   Office of Inspector General                                                         ~
                                                                                                                                       I
                                                 501 I Street, Suite 9-200                                                                  .
                                              Sacramento,California 95814                                                        ti"""D~
                                        Phone (916) 930-2388 .Fax (916) 930-2390


                                                         September20, 2002

                                                                                                           ED-OIG/A09-COO05

         Mr. SalYounis
         President
         Silicon Valley College
         41350 Christy Street
         Fremont, CA 94538-3115

         Dear Mr. Younis:

         This is the Office of Inspector General's Final Audit Report, entitled Silicon Valley College's
         Administration of the Higher Education Act, Title IV Programs. The purpose of the audit was to
         determine whether Silicon Valley College (SVC) met eligibility requirements and administered
         the Title IV programs in compliance with the Higher Education Act of 1965, as amended,and
         appl.icableregulations.

         In its responseto our draft report, SVC generally concurred with our findings, except for
         subsequentleaves of absence. Based on the school's input, we reduced the number of exceptions
         for subsequentleaves of absencefrom five to three. SVC concurred with our recommendations,
         except for recommendation2.3. We revised the wording in the recommendationto narrow the
         scope of the review. The school's comments are summarized in the report following each
         finding and the full text of the comments is included as an attachment.

                                                      AUDIT RESULTS

         SVC did not have adequatepolicies and procedures for ensuring that it complied with Federal
         requirements applicable to studentswho request or are on leaves of absence. Also, for students
         who withdrew from the institution, SVC did not have reliable records of the last day of
         attendance,which is used in calculating the amount of funds to be returned to Title IV programs.
         We concluded that SVC had properly administered other aspectsof the Title IV programs. We
         also concluded that SVC met institutional eligibility and program eligibility requirements.


         FINDING NO.1 -SVC               Needs to Strengthen Its Leave of Absence Procedures

         SVC did not have adequatepolicies and proceduresto ensure that loans were not disbursedto
         students on leaves of absence,subsequentleaves of absencewere for allowable lengths, and
         student requestsfor leaves of absencewere dated.

                    Our missionis to ensureequalaccessto educationand to promote educationalexcellencethroughouttheNation.




    -~                                                               "-                                   ~.~            "_.""""'-""--""-
 .ED-OIG/A09-COO05                                                                                              Page2 of9



         ImQroQerLoan Disbursements. We found that SVC improperly disbursedFederal Family
         Education Loan funds to three students while the studentswere on leavesof absence.! A prior
         audit also found that SVC had made a similar improper disbursement: The regulations at
         34 C.F.R. § 682.604(c)(4) state--

                A school may not credit a student's account or releasethe proceedsof a loan to a
                studentwho is on a leave of absence...

         Under SVC's procedures,the school's Financial Services Department conflrInS that students on
        the school's disbursementroster are shown in an active status on the.school's databaseprior to
        disbursing Title N funds. For two of the three students,leavesof absencehad not beenentered
        into the school's databaseat the time the loan disbursementswere madeto the students. Thus,
        the Financial Services Department was unaware that the studentswere inactive. For the
        remaining student, we found no apparentcause for the erroneous disbursement.

        The two late recordings of leavesof absencein the school's databasewere not the only instances
        we noted. We found that 16 of 26 leaves of absencereceived by the 20 sampled students were
        not entered into the databasetimely. The posting dates for the leaves of absencewere an average
        of 14 days after the beginning date of the leave of absence(elapsed days ranged from 1 to
        44 days). SVC staff relies on information contained in the school's databaseas part of the
        managementcontrols for ensuringcompliance with SVC policies and Federal regulations. Thus,
        information needsto be enteredinto the databasein sufficient time for the school's proceduresto
        be effective.

        We have not recommendedthe return of the improperly disbursed loan amounts since the three
        studentsreturned from their leavesof absenceand would have been eligible for the loan
        disbursementsat that time.

       SubseQuentLeaves of Absence. We found SVC granted subsequentleavesof absencefor
       unallowable lengths and purposesto three studentswho were subject to the limitations specified
       in 34 C.F.R. § 668.22(d)(2)(i). The regulations state--
--
               [A]n institution may treat-
               One leave of absencesubsequentto a leave of absence. ..as an approved leave of
               absenceif the subsequentleave of absencedoes not exceed 30 days and the
               institution determines that the subsequentleave of absenceis necessarydue to
               unforeseencircumstances. ..
                                                                                                                  .

        I Our sample of33 studentsconsisted of20 studentsthat were randomly selected and 13 studentsthat
       were judgmentally selected. Twenty of the 33 students had leaves of absenceduring their enrollments.
       Since a portion of the sample was judgmentally selected,the results presented in this finding may not be
       representative of the entire population. The PURPOSE, SCOPE, AND METHODOLOGY section of the
       report provides details on our sample selection methodology.
       2 SVC's IndependentCertified Accountant disclosed in the institution's annual audit report for fiscal year
       ended December31 , 2000, that SVC had disbursed loan funds to one student on a leave of absence.




                                                                                            ~",.,."" "..c   "
       ED-OIG/AO9-COOO5                                                                                Page3 of9



       The subsequentleavesof absencewere approved for periods exceedingthe 30-day limit, for
       lengths ranging from 56 to 63 days. SVC's leave of absencepolicy included the 3D-day
       limitation, but SVC staff did not adhereto the policy when approving subsequentleavesof
       absence.

      Undated Leave of Absence ReQuests.We found that SVC's documentation for six leaves of
      absencedid not include the date of the student's request.3 The regulations at
      34 C.F.R. § 668.22(d)(4)(iii) state--

              An institution's leave of absencepolicy is a "formal policy" if the policy- ...
               [r]equires studentsto provide a written, signed, and dated requestfor a leave of
              absenceprior to the leave of absence. However, if unforeseencircumstances
              prevent a student from providing a prior written request,the institution may ~ant
              the student's request for a leave of absence,if the institution documents its
              decision and collects the written request at a later date.

      SVC staff use either the school's "Change of Status" or "Request for Leave of Absence" form to
      document an approved leave of absence. While the school's forms included a line for "date
      initiated," the date was not always entered.


      Recommendations

      We recommend that the Chief Operating Officer for Federal Student Aid require SVC to-

      1.1     Implement proceduresthat ensure leave of absencesare entered in the school's database
              timely.

      1.2     Evaluate whether its current procedures contain sufficient safeguardsto prevent loan
              disbw'sementswhile a student is on a leave of absence,and ensure that staff comply with
              its leave of absencepolicies and procedures.
,..


      SVC Comments

      SVC did not agree with our finding regarding subsequentleavesof absence. In its comments,
      SVC stated that it has taken corrective action in responseto recommendations1.1 and 1.2,
      including providing training, reviewing and revising policy, and establishing computer controls.




      3 For purposes of our review, we accepted dates noted on any documentation in the student file related to
      the leave of absence.




                                                                                     "..    "..       "...""""0&,
                                                                                                            !\.
                                                                                                            t-'
.r,                                                                                                         ..



      ED-OIG/AO9-COOO5                                                                         Page4 of 9



      OIG Response

      As a result ofSVC's responseto our draft audit report, we reevaluatedthe five studentswe
      identified with multiple leavesof absence. Two of the studentswere on leavesof absencefor
      medical reasonsand we eliminated them from the finding. We suggestthat during audit
      resolution, the Chief Operating Officer review the school's policies and procedures: (1) for
      databaseupdates for leavesof absenceand (2) for the posting of Federal Family Education Loan
      funds.


      FINDING NO.2 -SVC          Needs a Reliable Record of Students' Last Dates of Attendance

      SVC did not have reliable records for the last date of attendance,which is used in calculating the
      amount of funds to be returned to Title IV programs for studentswho withdraw from school. We
      found that the dateswere inaccurately recorded in the databaseor the source documentationwas
      ambiguous for eight studentswith return of funds calculations.4

      The last datesof attendancefor five studentswere not accuratelyrecorded in the school's
      database. For three of the students, SVC's use of the inaccurate datesresulted in an
      understatementof the amountto be returned to Title IV programs. The following table shows
      the results of our recalculation of the return of funds for the five students:




                7/2/2001        6/28/2001              $76         Federal Pell Grant
               7/18/2001        6/27/2001              -0 ~                     ---
                7/30/2001       7/25/2001            $238           Stafford SubsidizedLoan
               7/30/2001        7/26/2001            $i22           Stafford Unsubsidized Loan
               7/19/2001         8/6/2001           ($229)a         Stafford SubsidizedLoan
            a Represents
                       amountof fundspaid to lenderthat exceedthe requiredreturnof Title IV funds
              amount.

      For anotherthree students,we could not determine the last date of attendancefrom the class
      attendanceroster. The notations on the roster were difficult to read (two students) or were
      changedbased on information provided by someone other than the instructor (one student).

      In addition to return of Title IV fund calculations, accurate and legible attendancerecords are
      important for monitoring student satisfactory academic progress and determining whether a                  r
      student should be dropped from the school.

      4 SVC staffperformedreturnof Title IV fund calculationsfor 23 of the 33 sampledstudents.Sincea
      portion of the samplewasjudgmentallyselected,the resultspresentedin this finding may not be
      representativeof the entirepopulation.
       ED-OIGI AO9-COOO5                                                                           Page 5 of 9




      Recommendations

      We recommend that the Chief Operating Officer for Federal StudentAid require SVC to-

      2.1     Return $360 to the applicable lenders and $76 to the school's Federal Pell Account for
              the three studentswhose return of Title IV funds amounts were understated.

      2.2     Resolve the last datesof attendancefor the three students for whom the attendancerosters
              were ambiguousand, if applicable, recalculate and return the appropriate Title IV funds
              amount.

      2.3     Have its independentauditor confIrm that the institution used the appropriate last datesof
              attendancefor the return of funds calculation for studentswho withdrew during the
              period June 1, 2001 to current, and, if applicable, recalculate and return the appropriate
              Title IV funds amount.

      2.4     Implement proceduresto ensure that the last day of attendanceis accuratelyrecorded in
              the school's databasefor eachstudent.


      SVC Comments

      In its comments, SVC stated that it has taken or initiated corrective action in responseto
      recommendations2.1, 2.2, and 2.4, including returning Title IV funds for three students,
      resolving the ambiguous last date of attendancefor anotherthree students,and revising
      proceduresto ensurethe accuracyof the last date of attendance.

      SVC did not concur with recommendation2.3, stating that the burden and expenseof any audit
      work in addition to that done during the annual compliance audit were not warranted by the
-:.   immaterial findings and non-representativesample.

      OIG Response

      We suggestthat during audit resolution, the Chief Operating Officer review: (1) the
      documentationused to resolve the ambiguous last dates of attendanceand (2) the revised
      procedures.

      With respectto SVC's objection to recommendation 2.3, while the dollar amounts discussed in
      the finding are small from the perspective of the school and the Department, they may not be
      considered immaterial from a student's perspective. We altered the wording in recommendation
      2.3 to narrow the focus of the review to the last date of attendance,since we identified no errors
      with any other aspectof the return of funds calculations we examined. Footnote 4 acknowledges
      that the results presented in the fmding may not be representativeof the entire population.




                                                            "","            _a,c.,.,c..",
"!,'tJ!~
  .
.~~~C~!~.    U«(



            ED-OIGIA09-COO05                                                                         Page6 of 9




                                                  BACKGROUND
            SVC is a proprietary institution with a main campus in Fremont, California, and additional
            locations in Walnut Creek, SanJose,and Emeryville, California. SVC offers educational
            programs in Design Drafting, Computer Graphics, Information Technology, and Health Care
            Technology. SVC is accredited by the Accrediting Commission of Career Schools and Colleges
            of Technology. U.S. Education Corporation purchasedSVC on June 12, 2002.

            SVC received initial approval to participate in the Title IV programs in 1991. SVC records show
            that the institution received $13.8 million of Title IV funds during the period January 1, 2000 to
            December 31,2000. The 1999 Cohort Default Rate (the Department's most recently published
            rate) for SVC was 9.6 percent.



                                PURPOSE, SCOPE, AND METHODOLOGY
            The objective of our audit was to determine whether SVC met eligibility requirements and
            administered the Title IV programs in compliance with the Higher Education Act and applicable
            regulations. For the review of institutional eligibility, we reviewed the school's most recently
            completed fiscal year at the time the audit was initiated (fiscal year ending December 31, 2000).
            For the review of student eligibility, our audit period was from July 1, 2000 through
            December 5, 2001. Our review did not cover SVC's administration of the Federal Work Study
            program or educational programs offered at the Emeryville campus, which was not approved for
            participation in the Title IV programs at the time we initiated our review.

            To accomplish our objective, we reviewed applicable Title IV regulations and gained an
            understanding ofSVC's policies and procedures by interviewing managersand staff responsible
            for admissions, registration and attendance,student fmancial aid and businesstransactions. We
            evaluated SVC's procedures and reviewed records to assessthe effectivenessof its management
            controls. Specifically, we evaluated: 1) institutional and program eligibility, 2) cash
            managementand fmancial responsibility, and 3) selected administrative and compliance
            requirements (student eligibility, award calculations and disbursements, return of Title IV funds
            calculations, attendancerecords and leavesof absence,recruitment activities, and default
            management).

            To evaluate SVC's procedures,we reviewed documentation for 20 students randomly
            selected from a universe of 406 studentswho had started classesbetween July 1, 2000 and
             October 31,2001, and either withdrew during the time period June 1,2001 to December 5, 2001
            or were in a leave of absencestatus on December 5,2001. The universe included studentswho
            received and did not receive Title IV funds. We also reviewed files for 13 students that were
            judgmentally selectedbased on a risk analysis.

            We relied on computer-processeddata obtained from the institution's databasefor our review of
            student eligibility, Title IV disbursements,and the return of Title IV funds. As disclosed in the
            AUDIT REPORT section of this report, our tests found that leaves of absenceand last datesof
            attendancewere not accurate or timely recorded in the database. However, when the data are




                                                 -,,~lIijil"'I,I~
     .
          ED-OIGI AO9-COOO5                                                                                                            Page 7 of 9



         viewed     in context with other available           evidence, we believe the opinions,               conclusions,      and
         recommendations          in this report are valid.


         We performed         our fieldwork     at SVC's       corporate    office   in Fremont,     California      and at the
         campuses      in Fremont,     Walnut    Creek and San Jose, California,             from November           2001 to
         March 2002.        We held an exit briefmg           with SVC and u.S. Education                Corporation       officials     on
         June 21,2002.         Our audit was performed           in accordance       with government           auditing    standards
         appropriate    to the scope of the review described.



                                STATEMENT ON MANAGEMENT                                          CONTROLS
         As part of our review,       we assessed SVC's            management        controls,    policies,    procedures       and
         practices applicable to the scope of the audit. We assessed the level of control risk for
         determining the nature, extent and timing of our substantive tests. For the purposes of this
         report, we assessed and classified           tpe significant      controls related to the Title IV programs                    as
         follows:


              .Oversight         of program     eligibility
              .Monitoring          of institutional  eligibility     and fmancial       responsibility        requirements
              .Student        eligibility   determinations
             .Award          and disbursement       of Title    IV funds
              .Monitoring       attendance and leaves of absence
              .Return     of Title IV funds.


         Because of inherent limitations,          a study and evaluation            made for the limited        purpose described
         above would        not necessarily   disclose all material         weaknesses      in the management             controls.
         However,      our assessment disclosed weaknesses                 in the procedures       for granting and recording
         leaves of absence and determining the last dates of attendance.                         These weaknesses are discussed.
          in the AUDIT RESULTS      section of this report.


--
       !i:'!1~,."!ct",.".,
       ~".
.y,c

                ED-OIG/AO9-COOO5                                                                             Page 8 of9




                                               AD MINISTRA TIVE MA TTERS

                Statementsthat managerial practices need improvements, as well as other conclusions and
                recommendationsin this report representthe opinions of the Office of Inspector General.
                Determination of corrective action to be taken will be made by the appropriate Department of
                Education officials.

         If you have any additional comments or information that you believe may have a bearing on the
         resolution of this audit, you should send them directly to the following ED officia~ who will
.consider         them before taking fmal action on the audit:

                                                          Ms. Theresa S. Shaw
                                                          Chief Operating Officer
                                                          Federal StudentAid
                                                          Union Center Plaza Building, Room 112G1
                                                          830 1stStreet, NE
                                                          Washington, D.C. 20202-5402

                Office of Managementand Budget Circular A-50 directs Federal agenciesto expedite the
                resolution of audits by initiating timely action on the fmdings and recommendationscontained
                therein. Therefore, receipt of your comments within 30 days would be greatly appreciated.

                In accordancewith the Freedomof Information Act (5 U.S.C. § 552), reports issued by the
                Office of Inspector Generalare made available, ifrequested, to membersof the press and general
                public to the extent information contained therein is not subjectto exemptions under the Act.

                If you have questions,please contact me at (916) 930-2399.

                                                                Sincerely,

r-                                                             {~~1/~~~o. ~           v...vr\-
                                                             ~ Gloria Pilotti
                                                             ij Regional Inspector General
                                                                   for Audit Services


                Attachment

                cc:          Chief Operating Officer
                             U.S. Education Corporation




                                                                                                 " ."","'~'L.""".",..",-
ED-OIGI AO9-COOO5                                                   Page 9 of 9




                              ATTACHMENT


                    SVC's Comments on the Draft Report




                                                         ",~".c",                 ",at...
      Silicon Valley College
         [~[~IIN~ ~I~~ I[L~ r~~f[~~I~N~l~




August 30, 2002


Gloria Pilotti
Regional Inspector General for Audit
U.S. Departmentof Education
501 I Street, Suite 9-200
Sacramento,CA 95814

Re: ED-OIG/A09-COO05

Dear Ms. Pilotti,
Silicon Valley College (SVC) submits these comments in responseto the draft findings
and recommendationsset forth in the above-referencedDraft Audit Report. We
appreciatethe Draft Report's acknowledgementthat, apart from the isolated instances
cited, the Office of Inspector General "concluded that SVC had properly administered
other aspectsof the Title IV programs," and that "SVC met institutional eligibility and

 program eligibility requirements."
 Finding No.1 -SVC Needs to Strengthen its Leave of Absence Procedures


 ~eroTJer Loan Disburseme~
 SVC concurs with the statementsof the auditors regarding the disbursementof the
 FFELP funds while a studentwas on leave. SVC further concurs with the Report's
 assertionthat the 3 three students did remain eligible for the funds.


 ~Q~ent    Leave of Abse~
 SVC does not concur with the interpretation as set forth in the Draft Report with respect
 to subsequentleavesof absences. SVC believes that the intent of the guidelines was to
  enable a studentto take subsequentleaves as illustrated below:
         An institution may grant one leave if:
                -The school determines that the leave is necessarydue to unforeseen

                    circumstances
                    -The additional leave does not exceed 30 days; and
                    -The total number of dates does not exceed 180 days.

 41350 Christy Street       2800 Mitchell Drive        6201 SanIgnacio Ave.   1400 65th StreetSuite 200
 Fremont, CA 94538          Walnut Creek, CA 94598     SanJose,CA 95119       Emeryville, CA 94608
 (510) 623-9966             (925) 280-0235             (408) 360-0840         (510) 601-0133
.

                Other exceptions to a single leave within a 12 month period apply to studentswho
               are called to military duty, jury duty, or meet the criteria under FLMA, as long as
               the total days do not exceed 180 days.

       Upon review of the particular studentsreferenced in this finding, SVC believes that all
       leaves fell within the Department's foregoing parameters with respectto unforeseen
       circumstancesand the FLMA. We note that the regulations afford the institution the
       discretion to reach a determination with regard to unforeseencircumstances. However,
       we do concur that 3 instancesdid exceedthe 30 day limit.


       Undated Leave of AbsenceRequests

       SVC concurs with the statementsof the auditors regarding the documentation not
       including a date.

      Recommendations:

       1.1    Implement proceduresthat ensure leave of absencesare entered in the schools
              databasetimely.

               SVC has reviewed its procedures for databaseupdates for leaves of absence.
              Theseprocedures consist as notification occurs for the Leave of Absence; the
              databaseis updated with in a reasonabletimeframe. We believe that the isolated
              instancesreported were the result of turnover in the StudentRecords department
              and insufficient training of new staff regarding the priority of data entry. Each of
              the Campus Registrars and Executive Directors, have reviewed our policies with
              there staff, and during the next in-service for Student Records, additional review
              will occur.

      1.2    Evaluate whether its current procedures contain sufficient safeguardsto prevent
             loan disbursementswhile a student is on a leave of absence,and to ensure that the
             staff comply with its leave of absencepolicy.
_::

             SVC policy regarding the posting of funds has beenreviewed and has been
             revised to include new safeguards against the disbursementof FFELP funds while
             a student is actively on leave. A Class system block has beenestablishedto not
             allow posting of FFELP funds while a student is on leave. The update to the
             Databasesystem is effective immediately, and it is our belief that with this
             additional block and training, the cause of this finding will be resolved.


      Finding No.2 -SVC Needs a Reliable Record of Students' Last Dates of Attendance

      While SVC concurs with respectto the 5 students listed in the auditors' grid at page 4 of
      the Draft Report, there are multiple mitigating factors that should be taken into account~
         with respectto this finding and the accompanying recommendations. First, we do not
         concur that this is a representativesample of the entire population. Four of the five
        isolated instancescited in the finding involved students who attendedthe Walnut Creek
        campus, and the sample of33 files was drawn predominately from the Walnut Creek
        campus, whereas only five were drawn from SanJose, and only eight were from
        Fremont. SVC believes that the isolated instancescited with respectto Walnut Creek
        studentsoccurred due to the new staff at that location, and notes that, for students
        sampled from the other locations, the Draft Report cites only one isolated error that
        resulted in no changeto the refund calculation.

        Second, SVC notes that the five students cited in the auditors' grid reflect non-material
        and nominal exceptions. As the grid reflects, despite the cited concernregarding last
        dates of attendances,two of the five studentexceptions listed did not result in any
        underpaymentofa return of Title IV fun.ds. As to the other three studentexceptions, all
        involved date differentials of only five days or less, and all of the return of funds.
        differentials were less than $250. For thesereasons,we believe that the finding should be
        treated as insubstantial, and non-material.




        Recommendations:

        2.1    Return $360 to the applicable lenders and $76 to the school's Pell Account for the
               three studentswhose return of Title IV fund amounts were understated.

               SVC concurs and will issue the returns as soon as possible.

        2.2    Resolve the last date of attendancefor the three students for whom the attendance
               rosters were ambiguous and, if applicable, recalculate and return appropriate Title
               IV funds amounts.

               SVC has reviewed the 3 students in question and it was detennined that the Last
               Date of Attendance was accurate,and will stand as posted in the CLASS
.:::-          database. No additional action should be taken.

        2.3   Have an independent auditor confinn that the institution is calculating the return
              of funds accurately, including using the appropriate last dates of attendance for
              studentswho withdrew during the period of 6/1/2001 to current, and if applicable,
              recalculate and return the appropriate Title IV funds amount.

              SVC concurs that, as part of its annual compliance audit procedure, our
              independent auditor should confinn that our institution is calculating the return of
              funds acc~rately. H.owever, in the event that this recommendationis intended to
              suggestthat the Chief Operating Officer should require our auditors to perfonn
              additional work, SVC does not agree that this finding warrants any separateaudit
              procedure. As was discussedabove, SVC believes that the returns and errors
.


          cited are not of material consequenceand that the sample is not representativeof
          the entire population. In all audit processesaffecting participating institutions,
          tolerancesare set forth to encompassthe possibility of isolated instances of
          human error having no material consequence,such as was identified by. this
          finding. Our auditors are obligated under the OIG audit guide and other
          requirementsto include a review ofSVC's return of funds calculations as part of
          the annual compliance audit process,and they will of course continue to do so.
          However, any recommendation of additional audit processeswould create
          overlapping burdens and expensesnot justified by this finding.

    2.4   Implement proceduresto ensure the last date of attendanceis accurately recorded
          in the schools databasefor eachstudent.

          SVC has reviewed our procedures for the processing of withdrawals and to ensure
          the accuracy of the Last Date of Attendance. For example, the original attendance
          roster will be reviewed, and a copy of the attendanceroster will be included with
          eachwithdrawal calculation.


          Thank you in advance for your consideration of these comments in conjunction
          with the issuanceof the final report.

          Respectfully submitted,



      ~~~-kJ:f>
          Barbara L Bickett
          Corporate Director,
          Financial Aid and Compliance
          Silicon Valley College

          cc: Sal Younis, President, SVC
              Less Pritchard, COO, USEC
       .
.
 01                                           REPORT     DISTRIBUTION          LIST

                                              CONTROL NO. ED-OIG/AO9-COOOS


            Auditee                                                ED Action Official   --




            Mr. Sal Younis                                        Ms. TheresaS. Shaw
            President                                             Chief OperatingOfficer
            Silicon Valley College                                FederalStudentAid


                                            Other ED Officials/Staff      (electronic copy)

            Audit Liaison Officer                                 Assistant General Counsel
            Federal Student Aid                                   Office of the General Counsel

           Deputy Secretary                                       Chief of Staff
           Office of the Deputy Secretary                         Office of the Secretary

           Under Secretary                                        Director
           Office of the Under Secretary                          Communications

           Chief Financial Officer                                Acting Deputy Assistant Secretary
           Office of the Chief Financial Officer                  Office of Legislation and
                                                                       Congressional Affairs

           Assistant Secretary                                    Director
           Office of futergovernmental                            Financial Improvement and
              and futeragency Affairs                                 Post Audit Operations
                                                                  Office of the Chief Financial Officer

           Post Audit Group Supervisor                            Area Case Director-San Francisco Region
           Financial Improvement and                              Case Management and Oversight
               Post Audit Operations                              Federal Student Aid
           Office of the Chief Financial Officer

           CorrespondenceControl
--Office         of the General Counsel


                                                          Q~
           Accrediting Commission of CareerSchools               California PostsecondaryEducation Commission
               and Colleges of Technology (ACCSCT)               1303 J Street, Suite 500
           2101 Wilson Boulevard, Suite 302                      Sacramento,California 95814-2938
           Arlington, VA 22201

                                                                 Chief Operating Officer
                                                                 U.S. EducationCorporation
                                                                 Irvine, CA




                                                                                                            ,,'."'.,.c,.   ,
